“Final Memorandum Regarding Potential Overpayment to Contractor” (IG-08-028,
August 28, 2008)

During the NASA Office of Inspector General audit of NASA’s implementation of
Defense Contract Audit Agency (DCAA) audit recommendations during the
administration of cost-reimbursable procurement actions (Assignment No. A-08-013-00),
we found that DCAA’s incurred cost audit reports may have overstated a contractor’s
cumulative allowable costs and could have resulted in NASA overpaying the contractor.

We issued a memorandum to the Johnson Space Center’s Director, Office of
Procurement that recommended a review to validate our finding and, if valid, we
recommended that the Office of Procurement initiate recovery of the amount overpaid.
Comments from the Johnson Director, Office of Procurement, included additional
documentation from DCAA that clarified the cumulative totals for FYs 2001 through
2003 and showed that the contractor had not received overpayment. We reviewed the
additional documentation and agreed that no overpayment was made. Our final
memorandum reported that the recommendation is resolved and closed.
The memorandum contains Privileged/Proprietary Commercial or Financial Information
that is not routinely released under the Freedom of Information Act (FOIA). To submit a
FOIA request, see the online guide.
